    INFORMATION ASSURANCE OF THE DEFENSE CIVILIAN
             PERSONNEL DATA SYSTEM - NAVY



Report Number 98-127                            April 29 1998




              Office of the Inspector General
                  Department of Defense
  Additional Information and Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Plamring, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Insnector
  General, DOD, Home Page-at: k&W.DdDIG.OSD.MIL.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support
  Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
  and requests can also be mailed to:

                     OAIG-AUD (ATTN: APTS Audit Suggestions)
                     Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                     Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to
  Hotline@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
  Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
  is fully protected.




Acronyms

DCPDS               Defense Civilian Personnel Data System
HRO                 Human Resources Off&
                             INSPECTOR     GENERAL
                             DEPARTMENT   OF DEFENSE
                               400 ARMY NAVY DRIVE
                             ARLINGTON. VIRGINIA 22202




                                                                         April 29, 1998

MEMORANDUM FOR ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: Audit Report on Information Assurance of the Defense Civilian Personnel
         Data System - Navy (Report No. 98-127)


        We are providing this audit report for your information and use. This is the
third of four reports on the Defense Civilian Personnel Data System by the Office of
Inspector General, DOD. We considered management comments on a draft of this
report in preparing the final report.

        Management comments on the draft of this report conformed to the
requirements of DOD Directive 7650.3 and left no unresolved issues. Therefore, no
additional comments are required.

       We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Ms. Mary Lu Ugone, Audit Program Director, at (703) 604-9049
(DSN 664-9049); Ms. Cecelia A. Miggins, Audit Project Manager, at (703) 604-9046
(DSN 664-9046); or Ms. Kathleen Fitzpatrick, Audit Team Leader, at (703) 604-8974
(DSN) 664-8974. See Appendix D for the report distribution. The audit team
members are listed inside the back cover.




                                        David K. Steen&a
                                 Deputy Assistant Inspector General
                                           for Auditing
                         Offke of the Inspector General, DOD

Report No. 98-127                                                        April 29,199s
   (Project No. 7RE-3006.02)

                 Information Assurance of the Defense Civilian
                        Personnel Data System - Navy

                                Executive Summary

Introduction. This report is the third of four reports in our ongoing review of the
Defense Civilian Personnel Data System. The first report discussed acquisition
management controls for the Defense Civilian Personnel Data System and the second
report discussed the information assurance controls for the overall system. The
Defense Civilian Personnel Data System is an automated information system that will
process sensitive-but-unclassified personnel information for 209,000 Navy and Marine
Corps civilian personnel records at 8 regional personnel centers and approximately
100 customer support units.

Audit Objectives. The overall audit objective was to evaluate the adequacy of
information assurance for the Defense Civilian Personnel Data System as it relates to
the Navy. Specifically, we evaluated security planning, risk analysis, and security
management. We did not evaluate the security of network and communications
infrastructure because DOD resources were not available to conduct vulnerability
assessments. We also reviewed the management control program as it applied to the
audit objectives. Appendix A discusses the audit process. Appendix B provides a
summary of prior coverage related to the audit objectives.

Audit Results. The Navy Pacific Region and two of its three human resources offices
have made Defense Civilian Personnel Data System information assurance a high
priority and have computer security programs in place. However, at the beginning of
the audit, its Human Resources Office Marine Corps Base Hawaii Kaneohe Bay did not
have a security program in place. As a result of the inadequate information assurance
controls at Human Resources Office Marine Corps Base Hawaii Kaneohe’Bay, the
Navy cannot ensure the confidentiality, integrity, and availability of more than
209,000 Navy and Marine Corps civilian personnel records. See Part I for the
complete discussion and Appendix A for details on the management control program.

Corrective Actions Taken or Planned. The Human Resources Office Marine Corps
Base Hawaii Kaneohe Bay has taken corrective action during the audit by developing a
security policy and interim authority to operate and by conducting a system security test
and evaluation. It has also appointed key security management positions and
established a risk analysis safeguard checklist to identify and define overall system
threats and vulnerabilities for the computers that run the Defense Civilian Personnel
Data System, and it has initiated ongoing security awareness training in accordance
with the Computer Security Act of 1987.
Summary of Recommendations. We recommend that the Human Resources Office
Marine Corps Base Hawaii Kaneohe Bay improve the adequacy of its Defense Civilian
Personnel Data System information assurance program by completing an overall
security plan and a contingency plan.

Management Comments. The Department of the Navy concurred with the
recommendations and has initiated needed actions. See Part I for a discussion of
management comments and Part III for the complete text of the management
comments.




                                           ii
Table of Contents

Executive Summary                                       i

Part I - Audit Results
      Audit Background                                 2
      Audit Objectives                                 4
      Information Assurance Program                    5

Part II - Additional Information
      Appendix A. Audit Process
        Scope and Methodology                          14
        Management Control Program Review              15
      Appendix B. Summary of Prior Coverage            16
      Appendix C. Glossary                             20
      Appendix D. Report Distribution                  23

Part III - Management Comments
      Department of the Navy Comments                  26
      Civilian Personnel Management Service Comments   28
,


    Part I - Audit Results
Audit Background
        Defense Civilian Personnel Data System. The modern Defense Civilian
        Personnel Data System (DCPDS) will provide a seamless automated information
        system for civilian personnel policy actions and personnel decisions during
        peacetime, contingencies, and wartime. The modem DCPDS will support
        Military Departments and Defense agencies worldwide and will be used by
        personnel officials, employees, managers, and senior leadership at all levels of
        DOD operations. The current operational DCPDS is an interim system designed
        to improve and enhance personnel staffs during the DOD transition to the
        modem DCPDS. The interim DCPDS, which this report refers to as DCPDS,
        resides on a mainframe computer and has separate databases at Military
        Department or Defense agency levels to support civilian personnel operations.
        The DCPDS databases are maintained at the Defense Information Systems
        Agency Defense Megacenter, located at Kelly Air Force Base, San Antonio,
        Texas. The DCPDS stores, processes, and transmits data for 750,000 personnel
        records, of which 209,000 belong to the Navy and Marine Corps and are
        subject to the Privacy Act of 1974 and the Freedom of Information Act. For
        security purposes, the DCPDS data are labeled “sensitive-but-unclassified. n

        The DCPDS Acquisition Program Manager has been delegated responsibility for
        the overall protection of the DCPDS information and the computer resources.
        The responsibility for the confidentiality, integrity, and availability of the
        DCPDS information resides with all DOD organizations and persons who have
        access to the records.

        The Navy Regions. The modem DCPDS will enable the Military Departments
        and the Defense agencies to process, store, and transmit civilian personnel
        records on databases at 22 regional service centers. Regionalization of civilian
        personnel operations began in FY 1995. The Navy is consolidating hundreds of
        full-service Navy and Marine C?rps personnel offices into eight regions called
        human resources service centers . In October 1996, the Navy established the
        Pacific Region, Honolulu, Hawaii.

        A region is the repository for official personnel files and regional DCPDS
        databases. A Navy region maintains a regional database containing personnel
        records of serviced employees, and the regional database updates the Navy
        DCPDS database in San Antonio, Texas. The personnel data are transmitted
        using the Internet. Additionally, the Navy DCPDS database feeds data to other
        DOD databases; for example, it feeds them to the Defense Civilian Payroll
        System and the Navy Headquarters System.




‘Regions are called human resources service centers by the Navy and regional service centers by DOD.




                                                  2
        A region’s mission is to provide information management and processing
        support for position classification, personnel recruitment and staffing, workforce
        development, employee benefits and services, and related records management.
        The Navy and the Marine Corps will reestablish the remaining portions of qeir
        civilian personnel offices as independently operated human resources offices
        (HROs) focusing primarily on personnel program planning and oversight, policy
        analysis and development, and management advice and consultation for
        personnel management within their respective commands. Under the
        regionalization concept, HROs will support a customer service environment and
        provide advisory services. In October 1996, three HROs became operational in
        the Pacific Region at the following locations:

                 l   Pearl Harbor Naval Shipyard, Hawaii;

                 l   Commander Naval Base Pearl Harbor, Hawaii; and

                 l   Marine Corps Base Hawaii Kaneohe Bay, Hawaii.

        Safeguarding Personnel Data. DOD civilian personnel data are subject to
        provisions of the Privacy Act of 1974 and the Freedom of Information Act.
        The Privacy Act of 1974 generally requires Federal agencies to safeguard
        personal information from disclosure to any other organization or individual
        without the consent of the individual to whom the information pertains. The
        Privacy Act of 1974 also requires each agency to account for disclosures of
        information to other organizations and individuals. The Freedom ‘of
        Information Act requires agencies to make information available to the public
        but excludes from that disclosure personnel information that would constitute an
        invasion of privacy. The DCPDS for the Navy must meet provisions of the
        Privacy Act of 1974 to safeguard the personnel data.

        The policy and procedures for safeguarding sensitive-but-unclassified DOD
        information are prescribed in DOD Directive 5200.28, “Security Requirements
        for Automated Information Systems (AISs),” March 21, 1988. “Information
        assurance” and “computer security, n as used in this report, are intended to be
        synonymous. Please see Appendix C for a glossary of terms used in this report.




2Support units are called human resources offices by the Navy and customer support units by DOD.




                                                  3
Audit Objectives

     The overall audit objective was to evaluate the adequacy of information
     assurance of DCPDS for the Navy. Specifically, we evaluated security
     planning, risk analysis, and security management. We did not evaluate the
     security of network and communications infrastructure because DOD resources
     were not available to conduct vulnerability assessments. We also reviewed the
     adequacy of the DCPDS management control program as it applied to the
     overall audit objective. See Appendix A for a discussion of the audit scope and
     methodology and the review of the management control program. Appendix B
     provides a summary of prior coverage related to the audit objectives.




                                         4
                Information Assurance Program
                     Navy Pacific             and two     its three         possess a security
                         security                      plan,       interim            to
                They        conduct           security test and evaluations, risk analyses,
                     security training and awareness programs; appoint             security
                                           and have           access controls and
                security            in         However, at the beginning of          audit, its
                       Marine Corps          Hawaii Kaneohe Bay did           have
                                               the audit, the HRO Marine             Base
                Hawaii Kaneohe Bay                                       and an interim
                authority to operate, conducted a system security test           evaluation and
                                      and awareness program, appointed key security
                management positions, and conducted risk analysis                        and
                defme overall                     and vulnerabilities                  DOD
                Directive 5200.28, “Security                      for Automated Information
                Systems                      21, 1988. However,                                 for
                           Marine           Base Hawaii Kaneohe Bay still
                                            does      have                       plan       a
                contingency

                         the DCPDS functional and acquisition managers did not
                coordinate with the         about
                      and responsibilities for the DCPDS information

                                                         the Navy cannot ensure the
                confidentiality, integrity, and                  pore than 209,000 Navy
                    Marine                                        that    processed   the
                DCPDS.


Requirements           for Information            Assurance Controls

        Federal Guidance. Office of Management and Budget Circular No. A-130,
        “Management of Federal Information Resources, n February 8, 1997, recognizes
        the need for special management attention for security of automated information
        systems because of the risk and magnitude of harm that could result from the
        loss, misuse, or unauthorized access to or modification of management
        information. In addition, Circular A-130 requires agencies to recognize that, in
        Federal Government information systems involving personal information, the
        individual’s right to privacy must be protected.

?he Navy Pacific Region maintains a database containing more than 9,000 records. The database links
 to and updates the DCPDS Navy database, which could allow for possible access to more than 209,000
 records if it lacks information assurance controls.




                                              .   5
Information   Assurance Program


       Circular A-130 directs all Federal agencies to protect information commensurate
       with the risk and magnitude of harm that would result from the loss, misuse, or
       unauthorized access to or modification of such information. Circular A-130
       requires agencies to incorporate minimum controls for all Government
       automated information system security programs to include the following:

                  Assign responsibility for security of each major application to a
                  management official knowledgeable in the nature of the information
                  and information process supported by the application and in the
                  management, personnel, operational and technical controls used to
                  protect it. This official shall assure that efkctive security products and
                  techniques are appropriately used in the application and shall be
                  contacted when a security incident occurs concerning the application.

       DOD civilian personnel data are subject to provisions of the Privacy Act of
       1974 (the Privacy Act). The Privacy Act generally requires Federal agencies to
       safeguard personal information from disclosure to any other organization or
       individual without the consent of the individual to whom the information
       pertains. The Privacy Act also requires each agency to account for disclosures
       of information to other organizations and individuals.

       The Computer Security Act of 1987 requires that Federal agencies develop
       computer security plans for all Federal computer systems that contain sensitive
       information to assure their integrity, availability, or confidentiality. Sensitive
       information as defined by the Computer Security Act of 1987 is:

                  . . . any information, the loss, misuse, or authorized access to, or
                  modification of which could adversely affect the national interest or
                  the conduct of Federal programs, or the privacy of which individuals
                  areentitled....

       DOD Security Requirements.        DOD Directive 5200.28 incorporates the
       provisions of Circular A-130 and provides mandatory minimum automated
       information system security requirements for systems that process sensitive-but-
       unclassified information. DOD Directive 5200.28 states that, as a minimum, a
       risk management program should be in place to determine how much protection
       is required, how much exists, and the most economical way of providing the
       needed protection. According to DOD Directive 5200.28, risk management is
       the total process of identifying, measuring, and minimizing uncertain events
       affecting automated information system resources. It includes conducting a risk
       analysis, cost benefit analysis, safeguard selection and implementation, security
       test and evaluation, and systems review. A risk analysis identifies threats and
       vulnerabilities and categorizes the level of risk associated with each.




                                                  6
                                                    Information Assurance Program


Existing Controls

     The Navy Pacific Region, HRO Pearl Harbor Naval Shipyard, and HRO
     Commander Naval Base Pearl Harbor have made DCPDS information assurance
     a high priority and have security programs in place. The offices have
     performed a computer security accreditation and conducted a risk analysis to
     identify security risks. As of July 1997, the HRO Pearl Harbor Naval Shipyard
     and HRO Commander Naval Base Pearl Harbor submitted computer security
     accreditation packages to the base Information System Security Officer and are
     waiting for the designated approving authority to accredit the DCPDS computer
     resources.

     Specifically, the sites possess security policy and plans; have system access
     controls and physical security controls in place; and have performed a computer
     security accreditation, which included the following:

               contingency plan,

               security test and evaluation,

               risk analysis safeguard checklist,

               security awareness training,

               appointment of key security management positions, and

               interim authority to operate on the local area network.

     See Appendix C for a glossary of terms.

     Corrective Action Taken. The HRO Marine Corps Base Hawaii Kaneohe Bay
     has taken corrective action since the start of the audit by performing a risk
     analysis safeguard checklist, system security test and evaluation, computer
     survey, and security policy for the computers that run DCPDS. The Marine
     Corps Base Hawaii has an interim authority to operate the DCPDS on the local
     area network not to exceed 1 year.

     Also, the HRO Marine Corps Base Hawaii Kaneohe Bay and the Marine Corps
     Base Hawaii have initiated ongoing security awareness training.

     The HRO Marine Corps Base Hawaii Kaneohe Bay and the Marine Corps Base
     Hawaii have completed appointment letters for key security management
     positions. The letters were awaiting signature of the base designated approving
     authority.

     Actions That Still Need To Be Taken. The HRO Marine Corps Base Hawaii
     Kaneohe Bay still needs to implement a security plan and contingency plan.




                                          7
Information Assurance Program


              Security Plan. The Computer Security Act of 1987 requires computer
      security plans to be developed for all Federal computer systems that contain
      sensitive information to ensure their integrity, availability, and confidentiality.
      The security plan describes the strategy for implementing information assurance
      and establishes a methodology for validating the security requirements identified
      in the security policy.

      Without an established security plan, the HRO Marine Corps Base Hawaii
      Kaneohe Bay has no assurance that it has developed a strategy for implementing
      information assurance controls and a methodology for validating security
      requirements.

              Contingency Plan. DOD Directive 5200.28 requires that contingency
      plans be developed and tested to ensure that automated information system
      security controls function reliably and, if they do not, that adequate backup
      functions are in place to ensure that security functions are maintained
      continuously during interrupted service. DOD Directive 5200.28 also states that
      recovery procedures must be in place in case data are modified or destroyed.
      The HRO Marine Corps Base Hawaii Kaneohe Bay did not have a contingency
      plan. As a result, the HRO Marine Corps Base Hawaii Kaneohe Bay has no
      assurance that it can recover from a disaster or interruption of services.


Configuration       for DCPDS

      The Navy DCPDS database is networked to regional databases, which, in mm,
      are linked to HROs at installations throughout the Navy and the Marine Corps.
      Users at regions and HROs have a network of personal computers, containing
      system and application software, to facilitate data communication to interact
      with each other.

      The region maintains application software necessary to perform personnel
      functions on Hewlett Packard minicomputers. All successfully completed
      personnel transactions are posted to a regional database, then posted to update
      the Navy DCPDS database in San Antonio, Texas. The personnel data are
      transmitted across combinations of local area networks using the Internet
      Protocol method. Most DOD organizations that use the Internet Protocol
      method access the DCPDS database using the Not Classified Internet Protocol
      Router Network.

      The personnel data are not encrypted when transmitted back and forth between
      Navy regional databases and the Navy DCPDS database in Texas, leaving the
      data vulnerable to unauthorized access. If unauthorized access to a computer
      occurs, all of the resident information is at risk, and other connected networks
      are also in jeopardy.




                                            8
                                                   Information Assurance Program


Information Assurance Control Documentation
    DOD Directive 5200.28 provides mandatory minimum automated information
    system security requirements for systems that process sensitive-but-unclassified
    information. Secretary of the Navy Instruction 5239.2 (Navy Security
    Program 5239.2), “Department of the Navy Automated Information Systems
    (AIS) Security Program,” November 15, 1989, which implements DOD
    Directive 5200.28, requires that the appropriate designated approving authority
    accredit automated information systems, networks, and computer resources
    based on a certification and risk management process. Automated information
    systems not accredited may operate on a local area network if the designated
    approving authority has issued an interim authority to operate for a period not to
    exceed 1 year.

    The HRO Pearl Harbor Naval Shipyard and HRO Commander Naval Base Pearl
    Harbor, which are base-owned, conducted a site accreditation of the DCPDS
    computer resources as required by the Navy Security Program 5239.2. The
    HROs provided to the base-level designated approving authority information
    needed to determine whether the computers are operating within an acceptable
    level of risk to be placed on the base local area network.

    The HROs submitted accreditation packages to the base Information System
    Security Officer, who reviewed the packages and submitted them for approval
    to the designated approving authority. If acceptable, the designated approving
    authority issues a formal declaration that the DCPDS is approved to operate on
    the base local area network because it meets a prescribed set of security
    standards.


Responsibilities for DCPDS Information Assurance
    The DCPDS functional and acquisition managers and the Navy Pacific Region
    and its HROs all have shared roles and responsibilities in safeguarding the
    DCPDS personnel data. The organizations must fulfill their responsibilities to
    achieve information assurance for DCPDS.

    Directorate of Personnel Data Systems Responsibilities. According to the
    Air Force Personnel Center Pamphlet 38-1, “Organizations and Functions,”
    April 14, 1997, the Directorate of Personnel Data Systems is responsible for
    establishing, directing, and managing communications and computer systems
    security policy and the procedures covering DCPDS at all levels of Federal and
    DOD organizations.

    Navy Responsibilities. As owner of the personnel data, the Navy is
    responsible for directing, coordinating, and managing security policy and
    procedures for Navy and Marine Corps personnel offices using DCPDS. The




                                        9
Information Assurance Program


      Navy is also responsible for coordinating and following up on security issues
      and concerns between the Navy personnel sites and the Directorate of Personnel
      Data Systems.

      Navy Pacific Region Responsibilities. The Navy Pacific Region maintains its
      own domain and is responsible for instituting its own security protection
      mechanisms and procedures as well as for implementing the minimum security
      requirements in accordance with DOD regulations. To meet minimum security
      requirements, the Navy Pacific Region must accredit its automated information
      system. An accreditation is the approval to operate in a particular security
      mode using prescribed safeguards. Part of the accreditation process is
      performing a risk analysis of system assets and vulnerabilities to establish an
      expected loss from certain events based on estimated probabilities of
      occurrence.

      HRO Responsibilities. The HRO system architecture consists primarily of
      desktop personal computers that processes sensitive-but-unclassified data. To
      achieve appropriate measures against threat and vulnerabilities, each HRO is
      responsible for conducting risk analyses to identify most risks and threats
      associated with each workstation that processes personnel data.


Coordination      With DOD Components

      The DCPDS functional and acquisition project managers did not coordinate with
      the Navy in their respective security management roles and responsibilities for
      the DCPDS information assurance program. Specifically, the Directorate of
      Personnel Data Systems, Air Force Personnel Center, does not have an adequate
      program in place to coordinate and communicate with DOD Components about
      their respective security management roles and responsibilities for the DCPDS
      information assurance program. The Directorate of Personnel Data Systems
      also has not ensured that DCPDS uses the effective security products and
      techniques required by Circular A-130. The Directorate of Personnel Data
      Systems has not provided guidance to DOD Components on safeguards and has
      not followed up to ensure that the DOD Components have implemented
      corrective actions to guidance.

      The Directorate of Personnel Data Systems issued guidelines to DOD
      Component project managers for DCPDS sites to complete an operational
      certification in the memorandum, “Operational Certification-Regional Service
      Centers/Risk Analysis Status, n January 13, 1997 (Operational Certification
      Memorandum).

      The Operational Certification Memorandum states that the operatioaal
      certification process is an integral part of ensuring system integrity and risk
      analysis continuity, and that the DCPDS security process requires a risk analysis




                                          10
                                                   Information Assurance Program


    or an update of the current one. Checklists for operational certification and risk
    analysis were included as attachments to the Operational Certification
    Memorandum.

    The Directorate of Personnel Data Systems did not set milestone dates for the
    completion of the operational certification and risk analysis. The Operational
    Certification Memorandum guidance was not coordinated with and followed up
    by the Navy Pacific Region or its HROs. The Directorate of Personnel Data
    Systems does not have a method in place to determine when and whether sites
    have completed the operational certification.

    Coordination of DCPDS security issues is important to provide consistency
    among all DOD Components operating DCPDS. The lack of coordination is
    causing DOD Components to take their own approaches to security; that is, they
    are independently developing their own measures to deal with DCPDS
    vulnerabilities.

    Corrective Action Taken. Since the audit started, a coordinated DCPDS
    policy and security support plan was published. The plan defines the respective
    security management roles and responsibilities for DCPDS.

    Corrective Action Being Taken. Civilian Personnel Management Service, in
    conjunction with the Central Design Activity security staff, is developing a
    System Security Annex to the DCPDS Training Support Plan. The Annex will
    be provided to DOD Components to plan, develop, and execute training
    strategies for functional and technical personnel involved in the operations of
    the DCPDS. The Annex will also contain the knowledge, skills, abilities, and
    training requirements for network security offtcers and users at all operational
    levels. The System Securitv_ Annex was scheduled to be comnleted
                                                                   _      by April 30,
    1998.          -


Conclusion
    The Navy Pacific Region, HRO Pearl Harbor Naval Shipyard, and HRO
    Commander Naval Base Pearl Harbor have made DCPDS information assurance
    a high priority and have security programs in place. The HRO Marine Corps
    Base Hawaii Kaneohe Bay took corrective action during the audit by initiating a
    DCPDS security program.

    The Directorate of Personnel Data Systems developed and provided guidance
    for the security of DCPDS to DOD Component project managers. The guidance
    emphasized the priority and importance of effective risk management and
    security safeguards; however, it did not establish milestone dates for completion
    or follow-up to determine the status of steps performed. The Directorate of
    Personnel Data Systems should improve its communication and coordination of
    guidance issued to ensure the confidentiality, integrity, and availability of Navy
    and Marine Corps civilian personnel records on DCPDS.



                                        11
Management     Comments        on the Finding and Audit Response

    The Navy concurred with the finding. Although not required to comment, the
    Civilian Personnel Management Service provided suggestions on the finding,
    and we made revisions in consideration of management comments. The full text
    of the comments is in Part III.


Recommendations        and Management            Comments

    We recommend that the Director, Human Resources Offke Marine Corps
    Base Hawaii Kaneohe Bay:

           1. Complete an overall security plan for the Defense Civilian
    Personnel Data System.

          2. Complete a contingency plan for the Defense Civilian Personnel
    Data System.

    Management Comments. The Department of the Navy concurred and is
    working with the base to develop a security plan and a contingency plan, which
    will ensure the integrity of the computer systems used to hold personnel data
    and will include backup security controls and data recovery systems,
    respectively.




                                       12
Part II - Additional   Information
Appendix A. Audit Process

Scope and Methodology

    Scope. We judgmentally selected three Navy locations and one Marine location
    to evaluate the adequacy of information assurance for DCPDS.

    Methodology. We conducted on-site reviews of information assurance policies,
    procedures, and practices. We reviewed the information planning documents
    such as security policy, security plans, risk analyses, contingency plans, and
    security test and evaluations dated from November 1989 through November
    1997. We determined whether system access controls, physical security, and
    security training and awareness programs were developed and implemented.
    We reviewed user, system, and network administrator security practices. We
    identified and interviewed key security personnel such as the Information
    Systems Security Manager, Information Systems Security Officer, System
    Administrator, and DCPDS managers. We conducted interviews to determine
    the level of training provided for DCPDS information assurance.

    Scope Limitations. We did not evaluate the security of network and
    communications infrastructure because DOD resources were not available to
    conduct vulnerability assessments.

    Use of Computer-Processed Data. We did not use computer-processed data or
    statistical sampling procedures to evaluate the adequacy of the DCPDS
    information assurance.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DOD. Further details are available upon request.

    Audit Period and .Sta.ndards, and Locations. We performed this program
    audit from June through December 1997 in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DOD. Accordingly, we included tests of management
    controls considered necessary.




                                       14
                                                   Appendix A. Audit Process


            Control Program
DOD Directive 5010.38, “Management Control (MC) Program,” August 26,
1996, requires DOD organizations to implement a comprehensive system of
management controls that provides reasonable assurance that programs are
operating as intended and to evaluate the adequacy of the controls.

Scope of Review of the Management Control Program. We reviewed the
adequacy of Navy management controls as they relate to the DCPDS
information assurance program. Specifically, we reviewed controls for security
planning, risk analysis, and security management for DCPDS. We also
reviewed management’s self-evaluation for those controls.

Adequacy of Management Controls. We identified a material management
control weakness for the Navy, as defined by DOD Directive 5010.38. The
controls in place for information assurance were not adequate to ensure the
confidentiality, integrity, and availability of the DCPDS data. The
recommendations in this report, if implemented, will improve the controls for
protecting DCPDS data. A copy of this report will be provided to the senior
official responsible for management controls at the Navy.

Adequacy of Management’s Self-Evaluation. The Navy management
identified nersonnel offices as assessable units; however, information assurance
was not addressed for DCPDS and, therefore,.was not identified or reported as
a material weakness.




                                    15
Appendix B. Summary of Prior Coverage

General Accounting Office
    GAO Report No. AIMD-96-144 (OSD Case No. 1213), WoD General
    Computer Controls: Critical Need to Greatly Strengthen Computer
    Security Program,” September 30, 1996. The report discusses the General
    Accounting Office evaluation of the general computer controls at several large
    Navy and Marine Corps computer installations and at selected Defense
    Information Systems Agency Defense Megacenters. The report notes security
    weaknesses that would allow hackers and legitimate users to improperly access,
    modify, or destroy sensitive DOD data. The report recommended a centralized
    security management program with defined responsibilities, periodic reviews,
    and monitoring and reporting of improvement actions. DOD management
    concurred with all findings and recommendations.

    GAO Report No. AIMD-96-84 (OSD Case No. 1150), ‘%formation
    Security: Computer Attacks at Department of Defense Pose Increasing
    Risks,” May 22, 1996. The report discusses the General Accounting Office
    review of the extent to which DOD computers are being attacked, the potential
    for damage, aud the challenges faced in responding to the attacks. The General
    Accounting Office noted that attacks are increasing and damaging and are a
    threat to national security. The General Accounting Of&e concluded that
    policies are out-of-date and inconsistent and that many users are not aware of
    the magnitude of the problem. The report recommended that the Secretary of
    Defense strengthen the DOD information systems security program by
    improving policies and procedures, increasing user awareness, setting standards,
    monitoring security, and establishing responsibility and accountability. DOD
    management agreed with the report’s findings and recommendations.


Office of the Inspector General, DOD
    Report No. 9WJS2, “Information Assurance of the Defense Civilian
    Personnel Data System,” February 23, 1998. The audit objective was to
    determine the adequacy of the information assurance program for major
    automated information systems, specifically to evaluate DCPDS security
    planning, risk analysis, and security management. The report concludes that the
    DCPDS information assurance program did not have adequate controls in place
    to safeguard DCPDS data and resources. As a result, DCPDS has high risks for
    unauthorized system access, intentional and unintentional alteration and
    destruction of data, and denial of service to authorized users. The report
    recommended strengthened oversight and management of DCPDS information
    assurance. Also, the report recommended the establishment of information



                                       16
                                     Appendix B. Summary of Prior Coverage


assurance functional requirements and the implementation of information
assurance measures to protect DOD civilian personnel data. The Director,
Civilian Personnel Management Service, stated that, by acquiring C-2 compliant
system hardware and software, no perceivable threats would be in,the DCPDS
processing environment that must be countered by system design. In addition,
the Director stated that a computer security response team, representing the
Major Automated Information Systems Review Council, identified risks to
DCPDS through a facilitated risk assessment program, and the acquisition
program manager is developing an action plan to mitigate program risks. The
Director nonconcurred with a draft recommendation to revise the operational
requirements document to include validated threat information and also
nonconcurred with the threat requirements and funding to protect the DOD
civilian data. The Director stated that the facilitated risk analysis provided a
comprehensive list of threats and is a more appropriate analysis for the DCPDS.
The Director also stated that he does not recognize coordination with the
acquisition program manager as a problem and that there are no funding
deficiencies for protecting DOD civilian personnel data. The Director agreed
with the recommendation to coordinate and approve a certification and
accreditation plan to protect the DCPDS and commented that his office is
determining which organizational component will serve as the operating DCPDS
designated approving authority. Air Force management and the Assistant
Secretary of Defense (Command, Control, Communications, and Intelligence)
management agreed with the report’s fmdings and recommendations.

Report No. 98-024, Ykcurity Controls Over Systems Serving the DOD
Personnel Security Program,” November 19, 1997. The audit objective was
to evaluate security controls over the computer system serving the.DOD
personnel security program, which the Defense Investigative Service
administers. The report states that the Defense Investigative Service did not
have adequate controls to protect personnel security systems and data from
compromise. Therefore, the Defense Investigative Service cannot ensure that
unauthorized individuals can be prevented from accessing, modifying, or
destroying the highly sensitive DOD personnel security infotmation that it
administers. The report recommended the Defense Investigative Service to
communicate specific security requirements, modify Memorandums of
Agreement and contracts to include system security, develop and implement
access control policies, isolate critical resources in the system architecture, and
improve physical security. The Defense Investigative Service management
agreed with all recommendations and had initiated actions to improve systems
security and the systems architecture.

Report No. PO 97-049, “DoD Management of Information Assurance
Efforts to Protect Automated Information Systems,” September 25,
1997. The audit objective was to determine the effectiveness of DOD
management of information assurance efforts to protect automated information
systems. The report concludes that the security safeguards and practices that
protect DOD automated information systems need improvement. Inefficient and
ineffective implementation of the Defense-wide Information Systems Security
Program, outdated policies and procedures, inadequate direction and oversight,



                                     17
Appendix B. Summary of Prior Coverage


      and lack of accountability for information systems security management controls
      contributed to the inadequate security safeguards. The report recommended
      developing procedures to determine the Defense information infrastructure’s
      security posture, developing an information assurance strategic plan, and
      incorporating accountability requirements for personnel responsible for
      safeguarding DOD automated information systems. The Acting Assistant
      Secretary of Defense (Command, Control, Communications and Intelligence)
      generally concurred with the fmding and recommendations and, in coordination
      with the Services, Joint Staff, and Defense agencies, was establishing an
      integrated management process to extend DOD oversight of information
      assurance programs and activities to all DOD Components.


Air Force Audit Agency

      Project No. 96054027, “Data Communications Security,” April 15,
      1997. The audit objective was to determine whether the Air Force adequately
      protects sensitive-but-unclassified information transmitted over the Air Force
      Internet. The report concludes that Air Force systems continue to transmit
      sensitive-but-unclassified information unprotected over the Air Force Internet
      because the Air Force system managers had not conducted a risk analysis.
      Users and system managers of 5 of the 11 systems examined were not aware of
      the increased risk of using the Air Force Internet or of the sensitive nature of
      the information. The Air Force Audit Agency recommended a risk analysis for
      each system to identify the current risks of transmitting sensitive-but-
      unclassified information over the Air Force Internet, as well as to emphasize
      protection requirements to the designated approval authorities, Air Force
      management officials agreed with the overall audit results and planned
      responsive actions.

      Project No. 93058001, “Review of Personnel Concept III System Security
      and Equipment Management, ” April 3, 1995. The audit objective was to
      determine whether selected security and control procedures were properly
      implemented in the Personnel Concept III computer system. The report
      concludes that the Air Force did not implement adequate security access
      protection for the system and did not properly account for computer equipment.
      The Air Force Audit Agency recommended implementing separation of duty
      requirements, maintaining consolidated accreditation databases, identifying
      system threats and areas requiring additional protection, and implementing
      proper control and authorization of passwords. Air Force management officials
      agreed with the overall audit results and planned responsive actions.




                                          18
                                        Appendix B. Summary of Prior Coverage


Other Related Coverage

    Defense Science Board Task Force, “Information Warfare-Defense
    @‘W-D),” November 21, 1996. The task force was established to study the
    protection of information interests of national importance through a credible
    information warfare defensive capability. The report concludes that action is
    needed to defend against possible information warfare attacks against DOD
    systems that could impact the ability of DOD to carry out its responsibilities.
    The task force recommended 50 actions ranging from identifying a focal point
    within DOD for Information Warfare activities to allocating approximately
    $3 billion over the next 5 years to implement recommendations.

    Joint Security Commission, “Redefining Security,” February 28,
    1994. The Joint Security Commission report addresses the processes used to
    formulate and implement security policies in DOD and the intelligence
    community. The Joint Security Commission report concluded that the clearance
    process was needlessly complex, cumbersome, and costly. The Joint Security
    Commission report made recommendations to create a new policy structure,
    enhance security, and lower cost by avoiding duplication and increasing
    efficiency.




                                        19
Appendix C. Glossary
   Federal and DoD organizations have published numerous definitions for terms
   to describe conditions, events, and key officials involved with safeguarding
   automated information systems. We primarily used definitions from DOD
   Directive 5200.28, “Security Requirements for Automated Information Systems
   (AISs),” March 21, 1988 (DOD Directive 5200.28), and definitions from other
   guidance authorized by that Directive.

   Accreditation. Accreditation is the formal declaration by a designated
   approving authority that a system is approved to operate in a particular security
   mode using a prescribed set of safeguards at an acceptable level of risk.
   Accreditation is the official management authorization for operation of an
   information system and is based on the certification process as well as other
   management considerations. The accreditation statement affaes security
   responsibility with the designated approving authority and shows that due care
   has been taken for security. (DODDirective 5200.28)

   Certification. Certification is the technical evaluation of an automated
   information system’s security features and other safeguards, made in support of
   the accreditation process, which establishes the extent that a particular
   automated information system’s design and implementation meet a set of
   specified security requirements. (DODDirective 5200.28)

   Contingency Planning. Contingency plans are required to be developed and
   tested in accordance with Circular A-130 to ensure that automated information
   system security controls function reliably and, if not, that adequate backup
   functions are in place to ensure that security functions are maintained
   continuously during interrupted service. If data are modified or destroyed,
   procedures must be in place to recover. (DODDirective 5200.28)

   Interim Authority to Operate. The appropriate designated approving
   authority will accredit automated information systems, networks, and computer
   resources based on a certification and risk management process. Automated
   information systems not accredited may operate if the appropriate designated
   approving authority has issued an interim authority to operate for a period not to
   exceed 1 year. (Secrekzry of the Navy Instruction 5239.2, “Deparhnent of
   the NavyAutomated Information Systems (AIS) Security Prognun, ?
   November 15, 1989)

   Risk Aualysis. A risk analysis is an analysis of system assets and
   vulnerabilities to establish an expected loss from certain events based on
   estimated probabilities of occurrence. (DODDirective 5200.28)

   Security Awareness Training. Mandatory periodic security awareness training
   is required for all person involved in management, use, or operation of Federal
   computer systems that contain sensitive information. (Computer Security Act
   of 1987, Public Law 100-235)


                                       20
                                                              Appendix C. Glossary


     Security Test and Evaluation. Systems shall be subjected to a site and system
     specific security test and evaluation to ensure that the environmental and
     operational security requirements have been met. When feasible, security test
     and evaluation should be conducted by a third party approved by the designated
     approving authority. (Secretcuy of the Navy Instruction 5239.2)

    Threat.    A threat is any circumstance or event with the potential to cause harm
     to an information system in the form of destruction, disclosure, adverse
     modification of data, or denial of service. (National Security
     Telecommunicationsand Informa&n Systems Securely Instruction No. 4009)
    Vulnerability.   Vulnerability is weakness in an information system or its
    components (system security procedures, hardware design, management
    controls) that could be exploited. (NationalSecurity Telecommunicationsand
    Infonnation Systems Security Instruction No. 4009)


Key Offkials

     DOD Directive 5200.28 defmes the responsibilities of key officials that affect
     automated information systems security.

     Designated Approving Authority. The designated approving authority is the
     official who has the authority to decide whether to accept the security
     safeguards prescribed for an automated information system or the official who
     may be responsible for issuing an accreditation statement that records the
     decision to accept those safeguards. The designated approving authority must
     be at an organizational level, have authority to evaluate the overall mission
     requirements of the automated information system, and provide definitive
     directions to automated information system developers or owners relative to the
     risk in the security posture of the automated information system. (DOD
     Directive 5200.28)

     Information Systems Security Manager. The information systems security
     manager is responsible for planning, directing, and implementing the
     information security program. The information systems security manager is
     administratively and operationally responsible for the computer system.
     Generally, each organization has one information systems security manager.
     (Pearl Harbor Naval Shipyard Computer Security Handbook, 1996)

     Information System Security Officer. The information system security officer
     is responsible to the designated approving authority for ensuring that security is
     provided for and implemented. Specifically, the information system security
     officer is to:

     l  maintain a plan for system security improvements and progress towards meeting
     the accreditation,




                                         21
Appendix   C. Glossary



      l  evaluate known vulnerabilities to ascertain whether additional safeguards are
      needed, and

      l    ensure that audit trails are reviewed periodically. (DOD Directive 5200.28)

      Terminal Area Security Officer.      Terminal area security officers are appointed
      for computer systems with remote terminal access. The terminal area security
      officer provides security support to the information system security officer, and
      reports any problems or security compromises to the information system
      security  officer. Terminal area security officers may also be assigned as an
      “assistant information system security offker” in areas where the number of
      systems exceeds the ability of one information system security officer to
      effectively administer security requirements. (Pearl Harbor Naval Shipyard
      Computer Security Handbook, 1996)




                                            22
    Appendix D. Report Distribution


    Offke of the Secretary of Defense
    Under Secretary of Defense for Acquisition and Technology
       Director, Defense Logistics Studies Information Exchange
    Under Secretary of Defense (Comptroller)
       Deputy Chief Financial Officer
       Deputy Comptroller (Program/Budget)
    Assistant Secretary of Defense (Command, Control, Communications, Intelligence)
.   Under Secretary of Defense for Personnel and Readiness
       Deputy Assistant Secretary of Defense (Civilian Personnel Policy)
       Director, Civilian Personnel Management Service
    Assistant Secretary of Defense (Public Affairs)

    Department of the Army
    Auditor General, Department of the Army

    Department of the Navy
    Assistant Secretary of the Navy (Financial Management and Comptroller)
    Auditor General, Department of the Navy
    Director, Human Resources Operations Center, Information Technology
    Director, Human Resources Service Center, Pacific Region

    Department of the Air Force
    Assistant Secretary of the Air Force (Financial Management and Comptroller)
    Auditor General, Department of the Air Force
    Commander, Air Force Personnel Center
       Technical Director, Directorate of Personnel Data Systems, Air Force Personnel
          Center

    Marine Corps
    Director, Civilian Human Resources Office-West
    Director, Human Resources Office Marine Corps Base Hawaii Kaneohe Bay




                                              23
Appendix D. Report Distribution



Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency

Non-Defense Federal Organizations                and Individuals
Office of Management and Budget
       Information Center, National Security and International Affairs Division,
Technical
  General Accounting Office

Chairman and ranking minority member of each of the following congressional
committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Governmental Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
     Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                         24
Part III - Management Comments
    Department of the Navy Comments




               SUBJZCT:    Audit Rop0z-t on Informtion  A88uranca of the Defanso
                           Civilia    Pusonnol Dat8 Sys+u  - Navy (Project ISO.
                           7323-3006 .OZ)

                     Attwhmont 1 warn transmitted     to tha Direotor of Civilim
               Por8onnml Program,  We&quartus,        United St&e8   Wine  Corps,
               for raviou lld com8uits.

                     Tha tmputnnt    of the wavy concurs      in   the   report     finding
               and roc0nendation8.     Datailed qzI;Tzn
               Atkehnnt    1.



                                                    BERNARD   ROSTXW

                AttacJmult~:
                1. DoDIG Dr8ft of A Proposed Audit -port:            Information         Aauruux
*                    of the Defense Civilirn Pergonnol Data        Symtu -        Navy   (Projat
                     No. 7RE-3006.02 of Fabru~-y 6, 1999)
                2. Dmpartnnt. of the Wavy comment*

                copy to:
                ?JlD-31
                NAvINSlxN(O7)




    *Omitted because Attachment 1 is a copy of the draft reljort.




                                                     26
                                                  Department of the Navy Comments




                    ~putunt         of   thr   Wavy    Comments
                           DODIQ   Dr.ft"kdit         RmpOrt

             Inforrution    A8mu*nc*Yf    the Dofume             civilim
                            PUSOnn81   D8t8 6yeu
                             Projact #7RE-3006.OS

?indiagr    The W8vy P8cifio Region 8nd tvo of it8 thru        hum8n
rosourco8 office8 h8vo mado Defenmm Civili8n Porsonnol D8t8
Sy8tu    information a~suruwo a high priority       8nd h8va aoaputu
88curity program8 in place.       Ho~ovu,   information88suranaa for
it8 HumanResources Offica,       M8rin8 Corps B888 H8V8ii,   K8nooho Bay
&ill   n0.d irgrOV.MIlt   kC8U8a     it doem Mt  h8VO  8n OVU811
8ecurity pl8n 8nd contingency plan.

Don r8p1yr     Concur.
8.-ti8tiO8:       “W8r8CO-ndth8tth8       Diraotor, BuDWl RO8OUrCU
Offio8 Icarinm Corpm Barn0 H8V8ii K8noohe B8y oaplote   111 over811
locurity pl8n for the Dof8nmo Civili8n P8rwnnel     D8t8 system."

DOW Reply:  Concur.  A mOCWity  pl8n i8 bOing dwoloped   8t
K8n8oho Bay vhich vi11 onsure the integrity of the oomput8r
8yet8ms used to hold poroonnal d8t8.

n--tiO8:         “Wo rOeoPmnd   tb8t th0 Director,                   HUMn    RuOUrCU
OffiCr mina   Corps mS8  H8V8ii Kwwoha My ~jll.ta                       8
contingency pl8n for the Dafon8o Civiliur Pu8omol                      bt8    By8tom.”


W   noply:    Concur.   HIW XanOohO B8y i8 vorkingvith the ba80
CoBDuniCetiOn   Inform8tion Bystau   Dap8rtMnt to dmvolop 8
contingency plan vhich vi11 include backup Hcurity     Control8 8nd
d8t8 rwovery    8y8tUS.




                                                               Att8ahBontz




                                                  27
Civilian Personnel Management Service
Comments



                                          OLMRTTMLNT      O? DEFENSE
                               CIVILIAN     CCMDNNCL    YANADXYcNT   aIRVIa
                                               1.00 KCV BOULLVARD
                                            AKLINDTDN. VA UXOHIU




      MEMORANDUM FOR DIRECTOR,ACQUlSl’llONMANAGEMENT
                       DIRECTORATE,DEPAR.TMENTOF DEFENSE
                       INSPECTOR GENERAL


      SUBJE(JT:Fmpod AuditReporton infmmation kwance       for Ihe Jkfauc Civiliau
              Pwsomnd Data System -Navy (f’roject No. 7RE-3006.02)


             This m~wcpndum       wnstitumthe timctional pmpncnfr
                                                               mspooscto the PraporeaAudit

      Rcpoa on   information
                          Assumna           for tbc Dcfensc Civiliaa PwwnnclDataSystem-Navy,dakd    .

      IJcbnmy6.1998 (Pmjcct No. 7RE4006-02). ‘lb aUackd document
                                                              responds
                                                                     lo thsa@mbk

      findings, identifies w   conccms, and explains lbe nxisions we belicvc am DLccuuy rothalthc

      final repon will ibxurately rcflax the lkfcnsc Civilian krsomtcl Data Syslcm progrun

      information. We apprecilte your coh&alion          of our comments.




      Atm%mcnI:
      Asslalcd




                                                       28
                               Civilian Personnel Management Service Comments


                                                                                                 Final Report
                                                                                                  Reference




AUDIT BACKGROUND

wemeaviuul       htwtudmtasystam~&8nt().                            TheDefemcaviJiw              Revised
FWwnael Data System (DCPDS) will ptovitk a scamks~ uomatal ioformation system for
civilian petsonnel policy actions and petsood deciiions during pcrccimc. cont@encks. and
wattime. The DCPDS will .suppor~     Military aputmenu   end Defense ageocica wuddwidc  and
will bc used by pctsonncl offiiak. cmployeu. mansgas, and senior kadash@ at alI kvck of          Revised
DoDqxatioos.      TbeDBDSnridLsonamrinfrrrnecompuu~hrupu,thrrcrcpPNc
daUbases at Military DepuVncnt or Defense agency kvels to soppat civiIian penamel
opcr&ns.     TheDCPDSdatabaWsaremliataincdettbcAitPurceInfotmationPmce=iq
Activity located at Randolph hit Potce Base. San Antonio, Texas. The DCPDS will stem.
process, and ttansmit data fat 750,ooO petwane records. of which 209,000 belong to the Navy
~MuineCorpruduewhjcacotheRivryActof1974~rbePresdomofInformuion
Act. PW security pqoses, the DCPDS data re lab&d “sensitive-botu.”

m           The pqoscd Ianguage my c0ah.u mdetx since it does not distinguish between the
legacy DCPDS and the modem DCPDS still under dcv&pmeM. To avoid ccnliuion we
B            the subetitutiw of the foIlowing language. which clarifies the dist&&n between
thclcgacyfXYPDSaodthcmodanDCPM.               Alw,thepqwsedlanguagecortectsatechaical
aror, in that, the kgacy DCPDS mainf’ranxs that suppott DOD Military Suvices and Pe&tal
Agencies (other than an Au Potcc pottion) UC not located at Randolph APB. Texas.

-lkfmseavitiul-                Data System. The legacy Defense Civilian fWsomxJ Data
System (DCPDS) is an automsted infotmation system that is the standsrd LkD civilian ptmotd
mystun. ThckllryDCPDSbuKdtodocumurtudsroncivilirn~rtioarfathc
Depurmart’s employees. The system praure         satsitive-but-uncia&ial   peMNlel
infotmation. ThekgacyDCPDStcsitksonamsi&atwcomputerandhassepuatedat&a=sat
hfilitaty Dcp;lrcmcnl ot Dcfenac agency levels to soppott civilii paroanel opem&tU. Tht
kgscy-           daUmscsatemaintainedUtbbfmselafcnmationSystemsAgencyDcfamc
Mcgauatct, San Antonio. located at Kelly AFB, Texas. DCPDS stmes, pmcesus andtransmit
data for 750.000 pmonncl twotds. of which 209,000 belong to the Nwy ad Matine bps and
atesubjccttotbePtivacyActof      1974aadtheFtecdomoflnfotmationAct.

To suppott the tegion&atiott ofcivilii pusonncl se&x tklivety. the tk+n~&          developal a
suite of wftware epplicatiotts c&led Pemomxl Process Impmvetnmts (PPls) thet operate in
cunjunction with date from the kgacy DCPDS ia a ciicot-sctvet enviroamnt     The PPI Suite
povideslaeLaroaicmcrnrtoplraptc,routc,~~prwMelrtiolu;~urd
classify positions; iaitiatc. mute, and tmck training tcq~&; and rcus tbs parallel dat&ase
andassociateddataftomotherfunctiotulatcu.




                                            29
               Civilian Personnel Management Service Comments


Final Report
 Reference




                          Thc&ptmcntisnowintbspcrasofdcvalopingamodemDCPDS.              Thciimctimalityofthe
                          PPlSuitcwillbcinchxWinthcmadcn,DCPDS.          TbcmodunDCPDSwiJlpmvickr-
                          ~~infomvtions~thuwill~~paronnclpdicy~aumdperrwaeldecirioar
                          duting pma%in~. contingencies. and wartime. The Mom DCPDS will support compooenU
                          World*.”



RCViX!d                   Tk Navy Rqions (first paramh),           ‘-The DCPDS will cuabk tbc Miliuy ~mcntr            and
                          the Dcfenre agencies to process. store. and transmit civilian penonncl mco& on m             at 23
                          ngional service enters.”

                          Rcswnw:      Them are 22 mgional service centera under the cunent pmgram. Tk Defense
                          Mapping Apcy regional service center, which achieved full opemting capability in FY 1995.
                          was realigned under the National Imagmy and Mapping Agency (NM).            Due to its change in
                          security classitkation status NIMA is no longer counted as part of the rcgioMlizatial pmgram.
                          Recommad tbc &ntcncc be changed to IrEadLs foltows:

                          Tk modcm DCPDS will enable the Military Dcpmncnts and the Defense agencies to process.
                          store. and transmit civilian pc?sonncl Iculfds on databases at 22 regional savice centem.”

                          The Navy ltegkm @aryPph 2). “Additionally, the Navy DCPDS datab~ intczfaccs with
F&&d
                          other DOD and Federal timctional dalpbpILcs;for example. paymll and the Of&x of Mampucnt
                          and Budgu.”

                          m           The Navy DCPDS does nut have m intafxe with the Office uf Management and
                          Budge& The Navy DCPDS does provide data to the Hendquartcrs Navy System. which. in tum.
                          produces a tape to be sent to the Office of Persome h4anagcment to update the Ccatr8l
                          puronocl Data File. Raxmmcnd that thii ~~~tcnce be revisal IOmad:

                          eAdditimally. tbc Navy DCPDS database feeds data to otbcr DOD databases, for exanple
                          Defense Civilian Paymll System and the Headquarters Navy System.”

                          INFORlKATlON
                                    A!3!NRANCE PROGRAM

                          Page 5, Paragraph 2. ‘Fur&r, th DCPDS functional and rcquisitim pmgrhm manager6 did
                          not coordin~~ with Navy about their mspcctivc security manapmcnt roles and mspaasibilities
                          foe the DCF’DS information assurance pmgmm.”

                          Cmrdiaatlon with DOD Comp~~~~tr (page 10, puagmpb 6). “Ilw DCPDS fuoaional nnd
                          acquisition project managers did not wordinatc with tbc Navy in &heirmspective security
                          management mlts and responsibilities for the DCPDS inform&m assurance pmgram.”

                          Caotdktion       with DOD Comptmez~ts @ge 11, paragraph 4). ‘%ordinationof DCPDS
                          security issues is important to provide consistency among all DOD Cotnponcnts uprating
                          DCPDS. Tbc lsck of Ewpdination is causing DoD Components to take tbcii own apprcacbcs to
                          security; that is. they arc iw         y developing their own mcasums to dul with DCPDS
                          vulncr8bilitics.”




                                                                        30
Civilian Personnel Management Service Comments


                                                 Final Report
                                                  Reference
Audit Team Members

The Acquisition Management Directorate, Office of the Assistant Inspector
General for Auditing, DOD, produced this report.

Thomas F. Gimble
Mary Lu Ugone
Cecelia A. Miggins
Kathleen Fitzpatrick
Dorothy L. Dixon
Michael T. Carlson
Bemice M. Lewis
